PROOF OF SERVICE

I, Frederick W. Claybrook, Jr., a member of the bar of this Court, hereby certify
that on the 22nd day of February, 2021, three (3) copies of the Brief Amicus Curiae
of Frederick W. Claybrook, Jr., supporting granting the Petition in No. 20-1057,
Oracle America, Inc. v. United States, et al., were served by first-class mail, postage
pre-paid, on the following:
Counsel for Petitioner
Allon Kedem
Counsel of Record
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Avenue NW
Washington, DC 20001
Counsel for Respondent
Elizabeth B. Prelogar
Counsel of Record
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

